April 20, 2007

ELLIS BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Surface Transportation – Processing and Distribution
         Center Transportation Routes – Southwest Area
         (Report Number NL-AR-07-004)

This report presents results from our processing and distribution center (P&DC)
transportation routes audit (Project Number 06XG012NL003). Our objectives were to
evaluate the effectiveness of P&DC routes and identify opportunities to save money.
This report responds to a request from the Vice President, Network Operations, and
focuses on routes controlled by the Southwest Area.

The U.S. Postal Service could save $2,116,153 over the term of existing Southwest
Area P&DC highway contracts by canceling, not renewing, or modifying 32 trips. These
are funds put to better use and will be reported as such in our Semiannual Report to
Congress. The Postal Service could eliminate or modify the trips without negatively
affecting service because trip volume was low and mail could be consolidated on other
trips. We recommended the Vice President, Southwest Area Operations verify the
actual cancellation, modification, or substitution of the 32 trips identified by the U.S.
Postal Service Office of Inspector General (OIG).

Management agreed with our findings and recommendation. They stated that they
were in the process of implementing the reductions, that contract reduction negotiations
were ongoing, and that they anticipated all reductions would be completed by May 31,
2007. They explained that because negotiations were on-going, actual savings might
differ slightly from our estimates. They also said they would provide us with
documentation when their negotiations were finalized. Management’s comments and
our evaluation of these comments are included in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Cynthia Mallonee
    Katherine Banks
    Lynn Forness
    Deborah A. Kendall
Surface Transportation – Processing and Distribution Center                         NL-AR-07-004
 Transportation Routes – Southwest Area


                                        INTRODUCTION
 Background                     Processing and distribution centers (P&DC) are central
                                facilities that receive and process mail and then distribute it
                                to local service areas over the U.S. Postal Service’s
                                transportation network. The mail P&DCs process, including
                                First-Class Mail® and Periodicals, is very time-sensitive. As
                                a result, Postal Service transportation managers often must
                                move it from origin to destination overnight and, in making
                                transportation decisions, continually balance on-time service
                                standards with transportation costs. There are
                                approximately 270 P&DCs in the Postal Service network
                                and the Postal Service spends about $1.6 billion annually
                                on surface transportation contracts moving mail to and from
                                these facilities.




  Highway contractor at the
     North Texas P&DC
     November 28, 2006.




                                The Vice President, Network Operations, requested we
                                audit the scheduled contracted transportation routes
                                supporting P&DCs. Individual Postal Service areas control
                                those routes. This report focuses on routes the Southwest
                                Area controls and responds to this request.

 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of the scheduled contracted transportation
                                routes supporting P&DCs and to identify opportunities to
                                save money.




                                                    1
Surface Transportation – Processing and Distribution Center                       NL-AR-07-004
 Transportation Routes – Southwest Area



                                Using Postal Service computer-generated data, we
                                identified 6,995 trips operated under 746 Southwest Area
                                contracts that had at least one P&DC service point. We did
                                not audit or comprehensively validate the data; however, we
                                noted several control weaknesses that constrained our
                                work. For example, some computer files had missing
                                records and inaccurate trailer load volumes. Even though
                                data limitations constrained our work, we were able to
                                support our audit conclusions by applying alternate audit
                                procedures, including source document examination,
                                observation, physical inspection, and discussion with
                                appropriate officials.

                                During our work, we audited 20 facilities, visited three
                                facilities, interviewed officials at headquarters and in the
                                Southwest Area, reviewed relevant Postal Service policies
                                and procedures, interviewed managers and employees, and
                                observed and photographed operations. We also evaluated
                                mail volume and the type of mail carried, considered
                                on-time service standards and area initiatives to improve
                                service, and analyzed all 6,995 trips.

                                We conducted this audit from September 2006 through
                                April 2007 in accordance with generally accepted
                                government auditing standards and included such tests of
                                internal controls as we considered necessary under the
                                circumstances. We discussed our observations and
                                conclusions with management officials throughout our audit
                                and included their comments where appropriate.

 Prior Audit Coverage           Since September 2002, the U.S. Postal Service Office of
                                Inspector General (OIG) has worked with the Postal Service
                                to reduce surface transportation. As a result, we have
                                issued 32 audit reports that identified potential savings
                                exceeding $108.8 million over the life of eliminated or
                                reduced transportation contracts. See Appendix A for more
                                detailed information about these audits.




                                                    2
Surface Transportation – Processing and Distribution Center                             NL-AR-07-004
 Transportation Routes – Southwest Area


                                        AUDIT RESULTS
 Contracted Highway             The Postal Service could improve the effectiveness of
 Transportation Trips           scheduled surface contract routes supporting P&DCs and
                                save $2,116,153 over the term of existing Southwest Area
                                highway contracts by canceling, not renewing, or modifying
                                32 trips. The Postal Service could eliminate or modify the
                                trips without negatively affecting on-time service because
                                trip mail volume was low and mail could be consolidated on
                                other trips. As indicated below, 12 percent of affected trips
                                expire on June 30, 2007. The other 88 percent expire in
                                2008 or later and have 1 to 3 years remaining.

                                          PROPOSED NONRENEWALS AND CANCELLATIONS
                                                                AFFECTED    NUMBER     ESTIMATED
                                    TRIP CATEGORY                 TRIPS     OF TRIPS    SAVINGS

                                 Contracts expiring on
                                 June 30, 2007                 12 percent      4        $1,077,221

                                 Contracts expiring in
                                 2008 or later                 88 percent     28        $1,038,932

                                 All Total terminated
                                 trips                        100 percent     32        $2,116,153




     Highway contractor
   departing the Southwest
    Area Surface Transfer
  Center, November 28, 2006.




                                The Postal Service transportation network is dynamic and
                                requirements constantly change. As we discussed in the
                                objectives, scope, and methodology section of our report,
                                Postal Service data has certain limitations. Accordingly,
                                throughout our audit we coordinated with plant and area
                                transportation officials and proposed service reductions to
                                them. The officials then reviewed each proposal in



                                                        3
Surface Transportation – Processing and Distribution Center                         NL-AR-07-004
 Transportation Routes – Southwest Area


                                conjunction with their own assessment of area wide network
                                requirements and we discussed our proposals with them.
                                Based on these discussions, we believe the Postal Service
                                could attain savings through service reductions by:

                                    •   Not renewing unnecessary trips scheduled to expire
                                        on June 30, 2007.

                                    •   Canceling unnecessary trips currently contracted to
                                        expire in 2008 or later, which have 1 to 3 years
                                        remaining.

                                The savings we identified included savings from
                                nonrenewable trips, plus savings from trip cancellations net
                                of cancellation fees totaling approximately $92,000.

                                On March 13, 2007, we met with Southwest Area officials
                                and discussed our report and recommendation. At that
                                meeting, the officials agreed with our recommendation and
                                with the 32 trip proposals. (See Appendix B.)

 Recommendation                 We recommend the Vice President, Southwest Area
                                Operations:

                                    1. Verify the actual cancellation, modification, or
                                       substitution of the 32 trips with which Postal Service
                                       managers agreed and provide the dates action was
                                       taken.

 Management’s                   Management agreed with our findings and recommendation.
 Comments                       They stated that they were in the process of implementing
                                the reductions, that contract reduction negotiations were
                                ongoing, and that they anticipated all reductions would be
                                completed by May 31, 2007. They explained that because
                                negotiations were on-going, actual savings might differ
                                slightly from our estimates. They also said they would
                                provide us with documentation when their negotiations were
                                finalized. Management’s comments, in their entirety, are
                                included in Appendix C.

 Evaluation of                  Management’s comments are responsive to our findings
 Management’s                   and recommendation. We consider management’s actions,
 Comments                       taken or planned, sufficient to address the recommendation
                                we made in our report.




                                                    4
Surface Transportation – Processing and Distribution Center                                                                   NL-AR-07-004
 Highway Transportation Routes – Southwest Area


                                                                   APPENDIX A
                                                              PRIOR AUDIT COVERAGE
                                                                                                            Date Final   Potential
                                                                                                             Report       Savings
                                           Report Name                                      Report Number    Issued      Identified

     Highway Network Scheduling – Pacific Area                                              TD-AR-02-003     9/24/2002   $ 4,500,417
     Highway Network Scheduling – Northeast Area                                            TD-AR-03-002    11/25/2002      776,992
     Highway Network Scheduling – Capital Metro Area                                        TD-AR-03-007     3/28/2003     1,144,218
     Highway Network Scheduling – New York Metro Area                                       TD-AR-03-008     3/31/2003      470,123
     Highway Network Scheduling – Southwest Area                                            TD-AR-03-010     7/11/2003     5,989,082
     Highway Network Scheduling – Western Area                                              TD-AR-03-013     9/23/2003     2,721,530
     Highway Network Scheduling – Southeast Area                                            TD-AR-03-014     9/26/2003    11,352,881
     Highway Network Scheduling – Eastern Area                                              TD-AR-03-015     9/30/2003    10,577,367
     Highway Network Scheduling – Great Lakes Area                                          NL-AR-04-003     3/29/2004     5,352,877
     BMC Transportation Routes – Great Lakes Area                                           NL-AR-04-004     9/29/2004     7,660,533
     BMC Transportation Routes – Eastern Area                                               NL-AR-05-003     3/17/2005     4,791,570
     Intermodal Rail and Highway Transportation – Pacific Area                              NL-AR-05-004     3/18/2005     1,046,240
     BMC Transportation Routes – Southeast Area                                             NL-AR-05-005     3/18/2005     6,563,582
     BMC Transportation Routes – New York Metro                                             NL-AR-05-007      6/9/2005     1,499,371
     BMC Transportation Routes – Southwest Area                                             NL-AR-05-008      8/3/2005     7,175,912
     BMC Transportation Routes – Capital Metro Area                                         NL-AR-05-009      9/2/2005      803,060
     Intermodal Rail and Highway Transportation Between the Pacific and Southeast Areas     NL-AR-05-011     9/19/2005     1,261,308
     BMC Transportation Routes – Pacific Area                                               NL-AR-05-012     9/21/2005     3,123,562
     BMC Transportation Routes – Northeast Area                                             NL-AR-05-013     9/26/2005     2,491,133
     MTESC Network – Highway Transportation Routes New York Metro Area                      NL-AR-05-014     9/28/2005     1,025,812
     BMC Transportation Routes – Western Area                                               NL-AR-06-006     2/14/2006     2,235,812
     Intermodal Rail and Highway Transportation Between the Western and Great Lakes Areas   NL-AR-06-002     3/10/2006     1,942,841
     MTESC Network – Highway Transportation Routes San Francisco                            NL-AR-06-003     3/23/2006     1,091,640
     BMC Transportation Routes – Summary Report                                             NL-AR-06-004     3/28/2006                0
     MTESC Network – Highway Transportation Routes Memphis                                  NL-AR-06-005     3/28/2006      699,397
     P&DC Transportation Routes – Great Lakes Area                                          NL-AR-06-008     7/25/2006     5,289,849




                                                                             5
Surface Transportation – Processing and Distribution Center                                               NL-AR-07-004
 Highway Transportation Routes – Southwest Area

                                                                                       Date Final    Potential
                                                                                        Report        Savings
                                           Report Name                 Report Number    Issued       Identified


     MTESC Network – Highway Transportation Routes Atlanta             NL-AR-06-009    8/18/2006        801,097
     MTESC Network – Highway Transportation Routes Greensboro          NL-AR-06-010    9/18/2006       1,607,510
     P&DC Transportation Routes – Pacific Area                         NL-AR-06-011    9/21/2006       3,650,035
     MTESC Network – Highway Transportation Routes Dallas              NL-AR-06-012    9/28/2006       1,476,981
     P&DC Transportation Routes – Eastern Area                         NL-AR-07-002    3/23/2007       2,330,769
     Postal Vehicle Service Transportation Routes – Memphis P&DC       NL-AR-07-003    3/30/2007       7,344,820
     Totals                                                                 32                      $108,798,321




BMC − Bulk Mail Center
MTESC − Mail Transport Equipment Service Center
P&DC − Processing and Distribution Center




                                                                   6
Surface Transportation – Processing and Distribution Center                                                               NL-AR-07-004
 Highway Transportation Routes – Southwest Area


                                                                     APPENDIX B

                                          TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                                 POSTAL SERVICE MANAGERS AGREED

 Effective                   Highway
  Date of       Ending       Contract                                                          Annual    Estimated
   Last         Date of       Route       Trip                                                 Budget     Contract   Indemnity   Estimated
 Change        Contract      Number      Number     Recommendation   Origin to Destination      Cost       Cost         Fees      Savings
 7/1/2006      3/31/2010      720CA        1        Eliminate trip   Little Rock, AR P&DC     $ 19,292   $ 56,267     $ 6,431    $ 49,837*
                                                                     to Little Rock, AR APT
 7/1/2006      3/31/2010      720CA          2      Eliminate trip   Little Rock, AR APT to     19,292      56,267       6,431       49,837*
                                                                     Little Rock, AR P&DC
 7/1/2006      3/31/2010      720CA          3      Eliminate trip   Little Rock, AR P&DC       19,292      56,267       6,431       49,837*
                                                                     to Little Rock, AR APT
 7/1/2006      3/31/2010      720CA          4      Eliminate trip   Little Rock, AR APT to     19,292      56,267       6,431       49,837*
                                                                     Little Rock, AR P&DC
 7/1/2006      3/31/2010      720CA          5      Eliminate trip   Little Rock, AR P&DC       19,292      56,267       6,431       49,837*
                                                                     to Little Rock, AR APT
 7/1/2006      3/31/2010      720CA          6      Eliminate trip   Little Rock, AR APT to     19,292      56,267       6,431       49,837*
                                                                     Little Rock, AR P&DC
 7/1/2006      6/30/2008      75464          5      Eliminate trip   Greenville, TX to           4,905       5,722        817             4,905
                                                                     Greenville, TX Annex
 7/1/2006      6/30/2008      75464          6      Eliminate trip   Greenville, TX Annex        4,905       5,722        817             4,905
                                                                     to Greenville, TX
 2/1/2007      6/30/2007      752L2          5      Eliminate trip   Dallas, TX P&DC to         30,080      20,319          0       520,319
                                                                     North Houston, TX
                                                                     P&DC
 2/1/2007      6/30/2007      752L2          6      Eliminate trip   North Houston, TX          30,080      20,319          0       520,319
                                                                     P&DC to Dallas, TX
                                                                     P&DC
 7/1/2006      3/31/2010      76016          5      Eliminate trip   Fort Worth, TX P&DC        20,068      58,532       6,689           51,843
                                                                     to Dallas, TX AMC




                                                                             7
Surface Transportation – Processing and Distribution Center                                                               NL-AR-07-004
 Highway Transportation Routes – Southwest Area


 Effective                   Highway
  Date of       Ending       Contract                                                        Annual     Estimated
   Last         Date of       Route       Trip                                               Budget      Contract    Indemnity    Estimated
 Change        Contract      Number      Number     Recommendation   Origin to Destination    Cost        Cost          Fees       Savings
 7/1/2006      3/31/2010      76016        6        Eliminate trip   Dallas, TX AMC to         19,321       56,354        6,440       49,914
                                                                     Fort Worth, TX P&DC
 8/1/2006      3/31/2010      76049          7      Eliminate trip   Fort Worth, TX P&DC       13,662      39,848        4,554           35,294
                                                                     to Denton, TX
 8/1/2006      3/31/2010      76049          8      Eliminate trip   Denton, TX to Fort        13,662      39,848        4,554           35,294
                                                                     Worth, TX P&DC
 8/1/2006      3/31/2010      76049         15      Eliminate trip   Fort Worth, TX P&DC        2,835       8,269          945            7,324
                                                                     to Denton, TX
 8/1/2006      3/31/2010      76049         16      Eliminate trip   Denton, TX to Fort         2,835       8,269          945            7,324
                                                                     Worth, TX P&DC
 7/1/2006      3/31/2010      760M2          1      Eliminate trip   Forth Worth, TX           29,326      85,535        9,775           75,760
                                                                     P&DC to Dallas, TX
                                                                     P&DC
 7/1/2006      3/31/2010      760M2          2      Eliminate trip   Dallas, TX P&DC to        29,326      85,535        9,775           75,760
                                                                     Forth Worth, TX
                                                                     P&DC
 4/1/2007      3/31/2011      793BA         55      Eliminate trip   Lubbock, TX P&DF to       11,459      44,881        3,820       41,062*
                                                                     Lubbock, TX Singer
                                                                     STA
 4/1/2007      3/31/2011      793BA         56      Eliminate trip   Lubbock, TX Singer         9,234      36,166        3,078           33,088
                                                                     STA to Lubbock, TX
                                                                     P&DF
 10/2/2005     6/30/2007      710AD          5      Eliminate trip   Shreveport, LA P&DC        4,573      18,292            0           18,292
                                                                     to Shreveport, LA
                                                                     APT
 10/2/2005     6/30/2007      710AD          6      Eliminate trip   Shreveport, LA APT         4,573      18,292            0           18,292
                                                                     to Shreveport, LA
                                                                     P&DC
 9/2/2006      6/30/2007      730L9          3      Eliminate trip   Oklahoma City, OK         69,459     138,917            0      138,917
                                                                     P&DC to Dallas, TX
                                                                     P&DC
 9/2/2006      6/30/2007      730L9          4      Eliminate trip   Dallas, TX P&DC to        69,459     138,917            0      138,917
                                                                     Oklahoma City, OK
                                                                     P&DC



                                                                             8
Surface Transportation – Processing and Distribution Center                                                                        NL-AR-07-004
 Highway Transportation Routes – Southwest Area


 Effective                   Highway
  Date of       Ending       Contract                                                              Annual      Estimated
   Last         Date of       Route       Trip                                                     Budget       Contract      Indemnity   Estimated
 Change        Contract      Number      Number     Recommendation     Origin to Destination        Cost         Cost            Fees      Savings
 7/1/2006      6/30/2008      740BD        11       Change Frequency   Tulsa, OK P&DC to              4,174         4,869             0        4,869
                                                    to Sunday Only     Tulsa, OK AMF
 7/1/2006      6/30/2008      740BD         12      Change Frequency   Tulsa, OK AMF to               4,174         4,869            0            4,869
                                                    to Sunday Only     Tulsa, OK P&DC
 7/1/2006      6/30/2008      740BD         25      Eliminate trip     Tulsa, OK P&DC to              7,440         8,681            0            8,681
                                                                       Tulsa, OK AMF
 7/1/2006      6/30/2008      740BD         26      Eliminate trip     Tulsa, OK AMF to               7,440         8,681            0            8,681
                                                                       Tulsa, OK P&DC
 3/18/2006     6/30/2008      785AD          7      Eliminate trip     McAllen, TX P&DF to            3,127         3,648           521           3,127
                                                                       McAllen, TX APT
 3/18/2006     6/30/2008      785AD          8      Eliminate trip     McAllen, TX APT to             3,127         3,648           521           3,127
                                                                       McAllen, TX P&DF
 3/18/2006     6/30/2008      785AD         15      Eliminate trip     McAllen, TX P&DF to            3,127         3,648           521           3,127
                                                                       McAllen, TX APT
 3/18/2006     6/30/2008      785AD         16      Eliminate trip     McAllen, TX APT to             3,127         3,648           521           3,127
                                                                       McAllen, TX P&DF
                             Totals         32                                                 $    721,246*   $ 2,209,032*    $ 92,879   $ 2,116,153*

P&DC    − Processing and Distribution Center
P&DF    − Processing and Distribution Facility
AMC     − Air Mail Center
AMF     − Air Mail Facility
APT     − Airport
STA     − Station


* Minor rounding




                                                                               9
Surface Transportation – Processing and Distribution Center   NL-AR-07-004
 Highway Transportation Routes – Southwest Area



                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                   10
